                     Alternate Strategies Are Needed for
                        Upgrading Campus Facilities

                                     July 2005
                       Reference Number: 2005-10-105




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        July 6, 2005


      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


      FROM:                         (for) Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Alternate Strategies Are Needed for
                                    Upgrading Campus Facilities (Audit # 200310040)


      This report presents the results of our review of the replacement and renovation of the
      Internal Revenue Service (IRS) campus1 facilities. The overall objective of this review
      was to determine whether the IRS had developed a cost-effective plan for providing the
      facilities needed to accomplish the mission of the campuses.
      In summary, there are currently 10 IRS campuses comprised of 83 buildings with over
      9.7 million rentable square feet of space.2 The three major functions performed by
      personnel at the campuses include responding to taxpayer inquiries, completing
      compliance actions, and processing tax returns. The functions at the campuses have
      undergone a major restructuring because of the IRS Restructuring and Reform Act of
      1998.3 Furthermore, increases in the electronic filing of tax returns and changes in the
      technology used to store and retrieve taxpayer data are also having a significant impact
      on the functions at the campuses.
      The IRS, in partnership with the General Services Administration and a consulting firm,
      studied the physical condition of the current campus facilities and the future space
      requirements of the campuses. This study was used to develop a long-term strategy
      that focused on operational consolidation to eliminate the existing fragmentation of
      functions in multiple buildings at each of the campuses. However, this strategy requires
      a significant capital investment and has limited the options that were considered. The

      1
        The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
      forward data to the Computing Centers for analysis and posting to taxpayer accounts.
      2
        The rentable square footage is the area for which rent is charged under a lease, including a portion of the common
      area used by the public and for maintenance within the building.
      3
        Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
      16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                            2

IRS has not been successful in obtaining funding for the renovation or construction of
campus facilities. As a result, the upgrading of facilities has been delayed. Further, the
consulting firm did not consistently use the factors developed to calculate future space
requirements, which reduced the accuracy and reliability of the projections developed
for the future space requirements of the campuses.
We recommended the Chief, Agency-Wide Shared Services (AWSS), develop a more
flexible long-term real estate strategy and determine whether the real estate markets
can provide the facilities considered in the long-term strategy. We also recommended
the Chief, AWSS, finalize the workspace standards prior to developing alternate
campus space acquisition strategies and evaluate whether adjustments are appropriate
for the end-state requirements.
Management’s Response: IRS management agreed with our recommendations and
has proposed action to develop a new campus strategy based on each of the
campuses’ current facilities condition, business requirements, and real estate portfolio.
The new strategy will incorporate flexibility by using both consolidation and co-locating
multiple facilities at one location. The AWSS will update long-term master plans to
include the recently revised workspace standards and consider the current
circumstances at each location, such as the condition of the buildings, the cost to
upgrade, and the length of the existing lease. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                  Alternate Strategies Are Needed for Upgrading Campus Facilities




                                                  Table of Contents


Background ............................................................................................... Page 1
Alternate Strategies Are Needed to Address Funding Constraints
and Changing Requirements..................................................................... Page 3
         Recommendation 1: .......................................................................Page 6
         Recommendation 2: .......................................................................Page 7

Alternative Options Were Not Considered for the Approved
Replacement of the Kansas City Campus................................................. Page 7
Some Campus Space Requirements Need to Be Revised ....................... Page 10
         Recommendation 3: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Overview of the Comprehensive Real Estate
Master Program Projections for the 10 Campuses.................................... Page 17
Appendix V – Management’s Response to the Draft Report ..................... Page 18
             Alternate Strategies Are Needed for Upgrading Campus Facilities

                                  The Internal Revenue Service (IRS) campuses, previously
Background
                                  known as service centers, were established to process tax
                                  returns.1 There are currently 10 campuses comprised of
                                  83 buildings with over 9.7 million rentable square feet
                                  (RSF)2 of space. The three major functions at the campuses
                                  are:
                                  •   Accounts Management – Employees respond to
                                      taxpayer inquiries on refunds, tax law issues, and other
                                      questions and process adjustments to their accounts,
                                      including amended tax returns.
                                  •   Compliance Services – Employees handle issues
                                      related to balance due or delinquent accounts, conduct
                                      correspondence audits of tax returns, and correspond
                                      with taxpayers to determine whether income has been
                                      accurately reported.
                                  •   Submission Processing – Employees process tax
                                      returns and issue refunds and notices to taxpayers.
                                  Each year, employees assigned to these functions respond to
                                  about 109 million taxpayer inquiries and process over
                                  230 million tax returns. Employees assigned to other
                                  functions, including Appeals, Agency-Wide Shared Services
                                  (AWSS), Criminal Investigation, and Modernization and
                                  Information Technology Services, are also located at the
                                  campuses.
                                  The IRS has undergone major restructuring because of the
                                  IRS Restructuring and Reform Act of 1998.3 The 3 major
                                  functions at the 10 campuses were realigned into new
                                  business divisions, and the work was specialized to focus on
                                  meeting the unique needs of particular groups of taxpayers.
                                  The Accounts Management and Compliance Services
                                  functions at five campuses were designated to serve
                                  taxpayers who report only wage and investment income. At

                                  1
                                    The campuses are the data processing arm of the IRS. They process
                                  paper and electronic submissions, correct errors, and forward data to the
                                  Computing Centers for analysis and posting to taxpayer accounts.
                                  2
                                    The rentable square footage is the area for which rent is charged under
                                  a lease, including a portion of the common area used by the public and
                                  for maintenance within the building.
                                  3
                                    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                  sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                  23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                   Page 1
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     the remaining five campuses, these functions were
                     designated to serve small business and self-employed
                     taxpayers. The Submission Processing functions at eight
                     campuses were designated to process individual tax returns;
                     at the remaining two campuses, they were designated to
                     process business tax returns.
                     The IRS is reducing the number of campuses that process
                     individual tax returns based on the impact of the electronic
                     filing of tax returns. After the changes have been fully
                     implemented, the IRS plans to have three campuses process
                     individual tax returns. The elimination of returns processing
                     at the other five campuses will reduce the space needed and
                     require adjustments to the number of buildings at the
                     campuses.
                     The IRS completed a study to address the future space
                     requirements of the campuses, considering factors such as
                     the impact of electronic filing of tax returns, the
                     reorganization, and the condition of the facilities at the
                     campuses. The study was conducted by the IRS Real Estate
                     and Facilities Management (REFM) Division in partnership
                     with the General Services Administration (GSA) and a
                     consulting firm. During the period 2000 through 2004, the
                     IRS incurred approximately $4 million in consulting costs
                     for this initiative.
                     The results of the study were reported in the August 2003
                     Comprehensive Real Estate Master Program (CREMP).
                     The study concluded that the facilities at a majority of the
                     campuses were in poor physical condition and that
                     operations were fragmented. Detailed plans and analyses
                     for each of the campuses were reported in Site Specific
                     Campus Real Estate Master Plans.
                     The study also resulted in the development of an Optimal
                     Building Configuration Concept, whose design consists of a
                     multistory main building with three attached annexes. The
                     annexes are designed for efficient processing of tax returns,
                     while the multistory building is designed to house all other
                     functions at the campus.
                     Cost analyses were completed on options considered for the
                     Kansas City, Missouri (April 2003), and Philadelphia,
                     Pennsylvania (September 2001), Campuses. The
                     Philadelphia Campus was the first campus scheduled for
                                                                             Page 2
             Alternate Strategies Are Needed for Upgrading Campus Facilities

                                  replacement; the Kansas City Campus was the first to
                                  receive Congressional approval for a consolidated leased
                                  facility. The results were reported in Capital Investment
                                  Total Equivalent Cost Analysis (CITECA) reports. Studies
                                  are in progress on the options being considered for other
                                  campuses.
                                  The consulting firm developed the Campus Planning Model
                                  (CPM) as a tool to assist the REFM Division in projecting
                                  the space requirements of the 10 campuses. The CPM was
                                  designed to project the overall future space requirements for
                                  up to 15 years for each of the campuses, along with the
                                  space requirements of specific functions at each of the
                                  campuses.
                                  This review was performed at the IRS National
                                  Headquarters AWSS function in Washington, D.C., during
                                  the period February 2004 through January 2005. The audit
                                  was conducted in accordance with Government Auditing
                                  Standards. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The Office of Management and Budget (OMB) has
Alternate Strategies Are Needed
                                  provided guidance on the actions that should be taken when
to Address Funding Constraints
                                  choosing capital assets. The OMB Capital Programming
and Changing Requirements
                                  Guide states that agencies should determine:
                                  •   Availability – Can the market provide capital assets that
                                      partially or fully meet program requirements?
                                  •   Affordability – Are the assets affordable within budget
                                      limits? If the full requirement is not affordable, can it be
                                      divided into separate modules that are affordable?
                                  Appropriations to fund large-scale construction and
                                  renovation projects are generally provided to the GSA. The
                                  GSA manages Federally owned buildings, and the IRS
                                  leases its space from the GSA.
                                  The IRS worked with the GSA and an independent
                                  consulting firm to develop a long-term strategy for
                                  improving its campus facilities, which focused on
                                  consolidating campus operations. Depending on the age,
                                  condition, and location of existing buildings, this strategy
                                  required the IRS to either construct large new facilities or
                                  make significant renovations to existing buildings. The
                                                                                           Page 3
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     estimated cost of implementing the long-term strategy is
                     $2.32 billion over a 10- to 15-year period. However, the
                     OMB has not approved and is unlikely to approve funding
                     for the construction or renovation of any of the campuses.4
                     The Philadelphia Campus was the first scheduled for
                     replacement. The IRS submitted a request for approval for
                     the construction of a new Philadelphia Campus to the OMB
                     in each year from 2000 through 2003. However, the OMB
                     rejected each of these requests. The cost to replace the
                     Philadelphia Campus is estimated to be $305 million, which
                     would have represented a 25 percent increase over the
                     $1.2 billion the GSA had requested for Fiscal Year 2005
                     new construction and major renovations for Federal
                     Government buildings, such as border stations, courthouses,
                     and office buildings.5 The Congress has approved only one
                     project, the replacement of the Kansas City Campus.
                     However, this is a unique situation involving the renovation
                     of a historical United States Postal Service (USPS) building
                     located in the downtown area of Kansas City. A private
                     developer is paying for the renovation of the building, and
                     the developer will be compensated through a long-term
                     lease arrangement.
                     The CREMP recommended the number of campus
                     buildings6 be reduced from 83 to 17 and the total space at
                     the campuses be reduced from 9.7 million to 8.1 million
                     RSF. Five of the 10 campuses were to be renovated, based
                     on their locations and physical conditions. The remaining
                     five campuses were to be replaced, based on several factors
                     including the condition and location of the main buildings.
                     All the renovated and replaced facilities would be Federally
                     owned. Table 1 shows the estimated cost for each campus.




                     4
                       The Congress did approve a rent increase that allowed the IRS to move
                     into a new facility in Kansas City.
                     5
                       Excludes funding for Federal Government facilities such as
                     Department of Defense military installations and Department of
                     Veterans Affairs hospitals.
                     6
                       See Appendix IV for information on each campus.
                                                                                    Page 4
Alternate Strategies Are Needed for Upgrading Campus Facilities

                           Table 1: Estimated Capital Costs7 to Renovate or Replace the
                                                   Campuses

                                        Campus                Cost (in millions)

                         Renovation
                           Andover                                  $ 157
                           Brookhaven                                 168
                           Austin                                     149
                           Atlanta                                    111
                           Memphis8                                    23
                           Renovation Subtotal                                           $ 608
                         Replacement
                           Philadelphia                             $ 305
                           Kansas City                                337
                           Cincinnati                                 295
                           Ogden                                      332
                           Fresno                                     438
                           Replacement Subtotal                                        $ 1,707
                         Grand Total                                                   $ 2,315
                     Source: The CREMP.

                     The IRS’ strategy focused on consolidation to reduce
                     duplicate costs that result from fragmented space such as
                     additional cafeterias and training rooms, increased number
                     of security personnel, and the transport of employees and
                     documents between locations. In addition, the IRS expected
                     that consolidation would encourage business units to share
                     resources, such as personnel and workstations.
                     Because the primary objective of the IRS’ long-term
                     strategy was to consolidate all of the functions of each
                     campus at one site, other options were not adequately
                     considered even though they would not require as much
                     capital investment. For example, the IRS did not perform
                     any studies to determine whether functions at the campuses,


                     7
                       Capital Costs include estimated construction, site acquisition, design
                     and review, and management and inspection costs in 2003 dollars.
                     8
                       The Memphis Campus is approximately 8 years old and will not
                     require extensive construction on the existing site.
                                                                                       Page 5
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     such as Accounts Management, Compliance Services, and
                     Submission Processing, could be assigned to separate,
                     smaller facilities that met the needs of the functions at a
                     lower cost. The inclusion of smaller-scale alternatives
                     would have improved the IRS’ chances of obtaining funding
                     approval to relocate its campus operations into improved
                     facilities.
                     Furthermore, it is likely that smaller-scale alternatives are
                     becoming more feasible with time. Large-scale processing
                     operations at the campuses were needed primarily because
                     of the need to process a large volume of paper tax returns.
                     However, increases in electronic filing of tax returns are
                     reducing the number of paper tax returns filed and the space
                     required to process them. The REFM Division plans to
                     reduce Submission Processing function space from
                     3.5 million to 1.7 million RSF (for a reduction of
                     1.8 million square feet) over 15 years due to the increase in
                     filing of electronic returns. This means that 20 percent of
                     the total space will be used for tax return submission
                     processing.
                     In addition, the IRS is implementing the Customer Account
                     Data Engine and Customer Account Management systems.
                     These systems will reduce future staffing and space
                     requirements by improving productivity with timely access
                     to taxpayers’ accounts and eliminating work that results
                     from taxpayers’ returns not correctly posting to their tax
                     accounts. Other initiatives, such as Filing and Payment
                     Compliance and Collection Contract Support, will also
                     affect future space requirements.
                     We believe the IRS should reevaluate its Optimal Building
                     Configuration Concept and develop a configuration that will
                     increase the likelihood the market can provide capital assets
                     that partially or fully meet program requirements. This will
                     reduce the capital outlay needed and increase the IRS’
                     ability to adapt to changing space requirements as needs or
                     technology change.

                     Recommendations

                     The Chief, AWSS, should:
                     1. Develop a more flexible long-term real estate strategy.

                                                                           Page 6
             Alternate Strategies Are Needed for Upgrading Campus Facilities

                                  Management’s Response: The REFM will develop a new
                                  campus strategy based on each of the campuses’ current
                                  facilities condition, business requirements, and real estate
                                  portfolio. The new strategy will incorporate flexibility by
                                  using both consolidation and co-locating multiple facilities
                                  at one location.
                                  2. Reevaluate the Optimal Building Configuration Concept
                                     and develop a configuration that will increase the
                                     likelihood the market can provide capital assets that
                                     partially or fully meet program requirements.
                                  Management’s Response: Management’s response to
                                  Recommendation Number 1 also addressed this
                                  recommendation. In addition, the REFM will continue to
                                  pursue smaller leases to accommodate business functions
                                  rather than consolidation into one facility using the Optimal
                                  Building Configuration Concept.
                                  The IRS plans to consolidate the responsibility for
Alternative Options Were Not
                                  processing individual tax returns at three locations:
Considered for the Approved
                                  Kansas City, Missouri; Fresno, California; and
Replacement of the Kansas City
                                  Austin, Texas. Kansas City was selected based on three
Campus
                                  primary criteria:
                                  •   The size of its tax return processing operations, which
                                      was expected to result in economies of scale.
                                  •   Favorable conditions for recruiting and retaining
                                      employees.
                                  •   Low real estate costs—the real estate costs were
                                      estimated as $16 per rentable square foot.
                                  Originally, the Kansas City Campus was second on the IRS’
                                  list of facilities to be replaced. However, the Kansas City
                                  Campus was the first and only campus to be replaced. In
                                  FY 2003, the GSA and USPS proposed that the IRS
                                  consolidate its operations in downtown Kansas City at the
                                  largely vacant Main USPS facility, which was designated as
                                  a historical building, and construct remaining space
                                  requirements on adjacent land owned by the USPS. The
                                  USPS contracted with a private real estate developer, who
                                  agreed to pay for the renovation of the facility in return for a
                                  15-year guaranteed lease and temporary transfer of the
                                  building ownership. In April 2003, the Senate Committee
                                  on Environment and Public Works and the House of

                                                                                           Page 7
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     Representatives Committee on Transportation and
                     Infrastructure approved the leasing arrangement.
                     While this arrangement avoided a large initial outlay on the
                     part of the Federal Government, it was not the lowest cost
                     option considered. The Kansas City CITECA assessed
                     three options for the Kansas City Campus:
                     •     Renovate and upgrade the existing facilities.
                     •     Build a new consolidated, Federally owned campus.
                     •     Lease the USPS building after renovations and
                           expansions.
                     Several factors were considered for each option, including
                     the capital costs, occupancy costs, risk assessment analysis,
                     and intangibles. For the purpose of comparing costs, only
                     the capital costs and occupancy costs were compared
                     because cost savings from the other factors were considered
                     subjective. Table 2 shows the total occupancy costs for
                     each option considered in Kansas City.
                         Table 2: Total Occupancy Costs for the Kansas City Campus
                         Options Considered (net present value computed for 30 years’
                                         occupancy9 [$ in millions])
                                             Renovate Existing
                                                Buildings/     Construct New   Lease USPS
                                              Supplemental       Building       Building
                                                 Lease10
                         Capital Costs11            $88            $297            —

                         Occupancy Costs12         $494            $181           $537
                         Total Occupancy
                                                   $582            $478           $537
                         Costs13
                         Cost Savings             Baseline         $104             $45
                     Source: CITECA for Kansas City, 100% Presentation, April 25, 2003.


                     9
                       The net present value calculations were completed by the GSA using
                     The Automated Prospectus System (TAPS). TAPS was developed to
                     conform to requirements of OMB Circular A-94, Guidelines and
                     Discount Rates for Benefit-Cost Analysis of Federal Programs. Key
                     factors (e.g., the discount rate, inflation rate, and GSA management
                     costs) are included in the computation.
                     10
                        The IRS would need to add leased space to accommodate the
                     consolidation of Submission Processing functions from other campuses.
                     11
                        Initial capital required to implement the option.
                     12
                        Includes recurring costs associated with campus operations.
                     13
                        Rounded to the nearest $1 million.
                                                                                   Page 8
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     Although the IRS estimates it will save approximately
                     $45 million by leasing the USPS building compared with
                     renovating its existing buildings, it could have saved an
                     additional $59 million if a new facility had been
                     constructed. However, this option would have required
                     funding approval for an initial investment of approximately
                     $297 million, while the USPS option required minimal
                     initial investment.
                     Whether the lease of smaller facilities for individual
                     functions would have been a more cost-effective alternative
                     cannot be determined because market surveys and cost
                     studies of smaller-scale alternatives were not performed.
                     The GSA sponsored three independent appraisals of the
                     market rents for this facility to assure itself of the
                     reasonableness of the rent. Although the GSA concluded
                     that the IRS was paying a fair price for the rent at the former
                     USPS facility, the appraisals did not assess whether smaller
                     blocks of comparable space were available at other
                     commercial locations downtown. We reviewed two
                     separate real estate reports that assessed the real estate
                     market conditions for Kansas City in 2004. Table 3 shows
                     the vacancy rates and average full-service rental rates for
                     similar office space in Kansas City.
                                Table 3: 2004 Kansas City Market Conditions

                                                            Report A             Report B
                      Full-Service Rent per Square                 $22.00               $20.54
                      Foot, Class “A”

                      Vacancy Rate, Class “A” and            21.5 percent         21.1 percent
                      Class “B” Metro Area14
                     Source: Two independent 2004 real estate market reports.

                     These figures indicate the IRS could have benefited from
                     assessing the feasibility of using smaller blocks of
                     commercial space. The estimated difference in rent costs




                     14
                       Class “A” Office Space: The building is in a premier location with
                     excellent building finishes, multiple building amenities, and high
                     efficiencies. Class “B” Office Space: The building is in an excellent
                     location with good building finishes, some building amenities, and
                     medium efficiencies.
                                                                                     Page 9
              Alternate Strategies Are Needed for Upgrading Campus Facilities

                                   between the current market rates and the IRS’ expected rent
                                   cost in 2006 is $9.7 million per year.15
                                   The IRS developed the CREMP before its space standards
Some Campus Space
                                   and requirements were finalized. The REFM Division and
Requirements Need to Be Revised
                                   the consulting firm had not completed the data gathering
                                   and analyses necessary for accurately estimating space
                                   requirements. Therefore, the cost estimates for the options
                                   discussed in the CREMP are likely to change for the nine
                                   campuses that have not been funded for renovation or
                                   replacement.
                                   The IRS contracted with a consulting firm to assist with the
                                   development of space requirements and the estimated costs
                                   of replacing or renovating the 10 campuses. During the
                                   period 2000 through 2004, the IRS spent approximately
                                   $4 million for consulting firm services, including:
                                   •    Preparation of the Optimal Building Configuration
                                        Concept.
                                   •    Preparation of the CITECA.
                                   •    Preparation of the CPM.
                                   •    Preparation of the IRS campus CREMP.
                                   •    Preparation of the Site Specific Campus Real Estate
                                        Master Plans Updates.
                                   For the Accounts Management, Compliance Services,
                                   Submission Processing, and other functions at the
                                   campuses, the REFM Division developed workspace square
                                   footage factors that it used in the CPM to develop space
                                   requirements. During the development of the CREMP, the
                                   consulting firm proposed that the IRS revise its workspace
                                   factors to reflect the unique space requirements for different
                                   types of employees, such as paraprofessional employees
                                   assigned to the Accounts Management and Compliance
                                   Services functions and technical/professional employees
                                   assigned to functions such as Appeals and Criminal
                                   Investigation. The consulting firm used the proposed
                                   workspace factors to determine the space requirements at
                                   the Philadelphia Campus but did not apply these standards


                                   15
                                     It is not known what the additional costs of supporting multiple
                                   facilities at this location would have been; therefore, the actual
                                   difference may be less.
                                                                                                  Page 10
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     to the other campuses. The Strategic Campus Action Team
                     estimated that, if the proposed standards were applied to the
                     other campuses, it would shift over 464,000 RSF from the
                     Accounts Management and Compliance Service functions to
                     other campus functions.
                     Subsequent to issuance of the CREMP, the REFM Division
                     issued National Workspace Standards, which included new
                     draft workspace standards for both the Accounts
                     Management and Compliance Services functions. The draft
                     workspace standards were set as 120 Useable Square Feet
                     (USF), which is different from both the original standards
                     and the proposed standards used for the Philadelphia
                     Campus. Table 4 shows the different workspace standards
                     that have been used or developed for the three major
                     campus functions.
                          Table 4: Workspace Standards Used or Developed for the Three
                                           Major Campus Functions

                                           CREMP                          New
                                           Original       Proposed     Workstation
                           Function       Standards      Standards16   Standards
                     Accounts
                                           132 USF         104 USF        120 USF
                     Management
                     Compliance
                                           132 USF          99 USF        120 USF
                     Services

                     Submission
                                            84 USF          82 USF        100 USF
                     Processing
                     Source: Strategic Campus Action Team and the IRS-REFM Division
                     National Workspace Standards.

                     During the peak processing period, over 27,000 employees
                     are assigned to the Accounts Management and Compliance
                     Services functions at the campuses. As such, changes in the
                     workspace requirements for these employees will have a
                     major impact on the overall space requirements of the
                     campuses and the costs to renovate or replace them. The
                     REFM Division needs to determine which workspace
                     standards should be used and ensure they are applied to all
                     of the campuses.




                     16
                          Used for the Philadelphia CREMP only.
                                                                               Page 11
Alternate Strategies Are Needed for Upgrading Campus Facilities

                     The schedule for renovation or replacement is
                     dependent on funding approval
                     In the CREMP, the IRS based all of its requirements on an
                     “end-state” in 2017, the year the IRS expected to complete
                     the renovation or replacement of all campuses. The
                     requirements used to determine space needs, such as the
                     expected workload and number of Full-Time Equivalents
                     (FTE),17 were based on the IRS’ forecast for 2017. These
                     requirements were also used to estimate the cost for each
                     campus and to evaluate and select a strategy for improving
                     each facility.
                     For each campus, the CREMP established a priority
                     schedule that estimated the time it would take to complete
                     each project and the order in which the projects would begin
                     work. This schedule showed a 15-year time period to
                     complete all sites. However, the schedule is dependent on
                     funding allocation, which has not been approved, except for
                     the rent increase for Kansas City. It is unlikely the IRS will
                     complete the renovation and replacement of all campuses by
                     2017, since the work was planned to have started during
                     2002. As a result, the IRS should reassess the end-state year
                     and make appropriate adjustments to its requirements and
                     costs.

                     Recommendation

                     3. The Chief, AWSS, should finalize the workspace
                        standards prior to developing alternate campus space
                        acquisition strategies and evaluate whether adjustments
                        are appropriate for the end-state requirements.
                     Management’s Response: The revised workspace standards
                     were approved in December 2004. The REFM will use
                     these revised workspace standards in the updated long-term
                     master plans for each campus.

                     17
                        An FTE is a measure of labor hours in which 1 FTE is equal to
                     8 hours multiplied by the number of compensable days in a particular
                     fiscal year. For Fiscal Year (FY) 2004, 1 FTE was equal to
                     2,096 staff hours. For FY 2005, 1 FTE is equal to 2,088 hours.




                                                                                   Page 12
              Alternate Strategies Are Needed for Upgrading Campus Facilities

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Internal Revenue Service (IRS) had
developed a cost-effective plan for providing the facilities needed to accomplish the mission of
the campuses.1 To accomplish this objective, we completed the following subobjectives and
steps.
I.      To determine whether the IRS adequately estimated the future facility requirements of the
        campuses, we assessed the adequacy of:
        A. Baseline information on the current facility requirements of the campuses.
        B. Procedures for validating the accuracy and reliability of the baseline information.
        C. Procedures for validating key factors that affect space requirements, including the
           number of workstations, workstation size, and day/night shift ratios.
        D. Adjustments made to the future facility requirements of the campuses based on major
           processing changes, including projected increases in electronic tax return filing and
           the modernization of the computer systems.
        E. Data input to the Campus Planning Model (CPM) by comparing the data in the CPM
           to data on the source documents (for the Andover, Massachusetts;
           Kansas City, Missouri; and Philadelphia, Pennsylvania, Campuses). Andover was
           selected because it was the first Campus scheduled for renovation.
        F. Procedures for validating the accuracy and reliability of the CPM output.
        G. The CPM output for the Andover, Kansas City, and Philadelphia Campuses by
           confirming whether the output is correct based on the input data and variables in the
           CPM.
II.     To determine whether feasible alternatives for meeting the overall IRS requirements were
        evaluated, we:
        A. Reviewed the guidelines in the Office of Management and Budget (OMB)
           Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
           Programs, and Capital Programming Guide.
        B. Obtained and reviewed for compliance with OMB guidelines any studies that were
           performed on the cost and benefits of:



1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.

                                                                                                        Page 13
            Alternate Strategies Are Needed for Upgrading Campus Facilities

          1. The consolidation of the Accounts Management, Compliance Services, and
             support functions at five renovated campuses and one new campus.
          2. The consolidation of Accounts Management, Compliance Services, Submission
             Processing, and support functions at four new campuses.
          3. Other facilities configurations for the functions.
III.   To determine whether feasible alternatives for meeting the facility requirements of the
       individual campuses were evaluated, we reviewed the:
       A. Data and criteria used in the Comprehensive Real Estate Master Program (CREMP)
          and Site Specific Campus Real Estate Master Plans that determined which campus
          facilities would be renovated and which would be replaced.
       B. Data and criteria used in the CREMP and Site Specific Campus Real Estate Master
          Plans that determined when each campus facility should be renovated or replaced.
       C. Purchase/lease options considered for acquiring new campus facilities.
       D. Information on alternatives presented to the OMB to support the request for funding
          for the Philadelphia Campus.
IV.    To determine whether accurate and reliable estimates of expected costs and benefits were
       developed for the alternatives that were considered feasible, we:
       A. Reviewed the OMB Capital Programming Guide and Circular A-94.
       B. Reviewed any benefit-cost studies conducted on the overall alternatives for meeting
          the facility needs of the campuses for compliance with OMB guidelines.
       C. Reviewed the Capital Investment Total Equivalent Cost Analysis for the Andover,
          Kansas City, and Philadelphia Campuses for compliance with OMB guidelines.
       D. Reviewed information on cost and benefits presented to the OMB to support the
          request for funding for the Philadelphia Campus.
V.     To determine whether the IRS selected the most feasible alternatives for its overall
       facility needs and the facility needs of the campuses, we:
       A. Reviewed the process used to ensure alternatives for the overall facility needs, and the
          facility needs of each of the campuses, were consistently considered.
       B. Reviewed the alternatives that were available for meeting the overall IRS
          requirements, criteria used for selecting alternatives, and alternatives selected.
       C. Reviewed the alternatives that were available for meeting the facilities requirements
          of the Andover, Kansas City, and Philadelphia Campuses; the criteria used for
          selecting an alternative; and the alternative selected for each of the three campuses.
       D. Compared the facilities in the original plan for the Kansas City Campus with the
          facilities in the plans that received funding approval.
                                                                                               Page 14
            Alternate Strategies Are Needed for Upgrading Campus Facilities

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Carl L. Aley, Audit Manager
Albert M. Sleeva, Lead Auditor
David P. Robben, Senior Auditor
Frank I. Maletta, Auditor




                                                                                      Page 15
           Alternate Strategies Are Needed for Upgrading Campus Facilities

                                                                         Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief, Communications and Liaison CL
Director, Real Estate and Facilities Management OS:A:RE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                              Page 16
                     Alternate Strategies Are Needed for Upgrading Campus Facilities

                                                                                                Appendix IV


                     Overview of the Comprehensive Real Estate Master Program
                                   Projections for the 10 Campuses

                      Operating    2017           SP           2002        2017
                 1                                       2
     Campus            Division   SP Site?   Discontinued    Buildings   Buildings      2002 RSF       2017 RSF

    Andover             W&I         No           2008            7           1            778,811        445,065

    Brookhaven          SB/SE       No           2004            6           1            813,707        644,678
             3
    Austin              W&I         Yes          N/A             8           1            991,698        610,305

    Atlanta             W&I         No           2010           10           3          1,030,066        704,253

    Memphis             SB/SE       No           2006            3           1            972,115        548,168

    Philadelphia        SB/SE       No           2009            9           2            971,993        722,220

    Kansas City         W&I         Yes          N/A             7           1            837,764      1,140,000

    Cincinnati          SB/SE       Yes          N/A             7           2          1,116,651      1,020,253

    Ogden               SB/SE       Yes          N/A            14           4          1,240,367      1,022,375

    Fresno              W&I         Yes          N/A            12           1            951,549      1,273,283

    Total                                                       83          17          9,704,721      8,130,600
Source: Comprehensive Real Estate Master Program, August 2003.

Legend
Operating Division – The Operating Division for Accounts Management, Compliance Services, and
Submission Processing.
W&I – Wage and Investment.
SB/SE – Small Business/Self-Employed.
SP – Submission Processing.
RSF – Rentable square feet.
N/A – Not applicable.




1
  The data processing arm of the Internal Revenue Service (IRS). The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer
accounts.
2
  These dates are as of the Comprehensive Real Estate Master Program issuance date (August 2003). Some dates
may have since changed.
3
  In July 2004, the IRS decided to continue processing individual tax returns at the Austin, Texas, Campus.
                                                                                                      Page 17
Alternate Strategies Are Needed for Upgrading Campus Facilities

                                                                  Appendix V


        Management’s Response to the Draft Report




                                                                      Page 18
Alternate Strategies Are Needed for Upgrading Campus Facilities




                                                                  Page 19
Alternate Strategies Are Needed for Upgrading Campus Facilities




                                                                  Page 20
Alternate Strategies Are Needed for Upgrading Campus Facilities




                                                                  Page 21
